'

Case: 20-6005

Document: 14-1

Filed: 01/11/2021

(1 of 5)

Page: 1

No. 20-6005

FILED
Jan 11,2021
DEBORAH S. HUNT, Clerk

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

RICKEY BENSON,

)
)
).
)
)
)

Plaintiff-Appellant,
v.
STATE OF TENNESSEE; JAMES M. LAMMEY,
Judge of Division 5 of the Criminal Court of Shelby
County, TN,

■<

j

l -

i

AMENDED
ORDER

)
)
:■)

, . •)
)

Defendants-Appellees.

Before: BUSH, Circuit Judge.
A.

;

Rickey Benson, a pro se inmate at the Shelby County Correctional Center and frequent
litigant, moves to proceed in forma pauperis in his appeal from the district court’s dismissal of his
civil rights complaint pursuant to the “three-strikes” provision, 28 U.S.C. § 1915(g). Benson has
also filed a “petition for initial en banc hearing” and a “motion to enjoin crossclaim to petition for
en banc hearing.”
In July 2020, Benson filed a complaint, pursuant to 42 U.S.C. § 1983, against the State of
Tennessee and Judge James M, Lammey, Jr., raising claims related to the sentence imposed by
Judge Lammey upon his .plea of guilty to burglary charges in a Shelby County criminal court in
early 2019. He argued that, because of his history, of mental illness, Judge Lammey should have
sentenced him to probation and ordered him to participate in a mental health treatment program
rather than to a six-year prison term. He alleged-that Judge Lammey “neglect[ed] his official duties
to certify to the State that [Benson was] a mental patient who was consuming prescribed drugs,”
discriminated against him on the basis of his race and mental illness, and deprived him of due
process “by issuing an order for [him],to be transferred to a mental hospital . ..where [he] was

-receive0
’

..

; . ■!' ■v ’r ■!-!5v ■>"

MM \ “i

5 . ,

i.j

■

!--r-

crbu.rn ;/■ r. ,

. . .'or

i

Case: 20-6005

Document: 14-1

Filed: 01/11/2021

Page: 2

(2 of 5)

No. 20-6005

-2forced to consume prescribed drugs without [his] consent.” He asserted that Judge Lammey and
the State conspired to violate his constitutional rights. Benson also requested that the court “relieve
[him] from the [three-strikes] provision” because it had been more than ten years since such
restrictions had been imposed. Along with his complaint, Benson filed a motion to proceed in
forma pauperis.
Finding that Benson had filed more than three prior civil rights actions that were dismissed

i

for failure to state a claim or as frivolous and that his complaint did not demonstrate that he was
in imminent danger at the time he filed suit, see 28 U.S.C. § 1915(g), the district court denied
Benson’s motion to proceed in forma pauperis and dismissed his complaint without prejudice. The
court advised Benson that, within thirty days of its order, he could reopen the case by filing a
motion to reopen, accompanied by full payment of the civil filing fee. Benson filed a notice of
appeal from that order and a motion for reconsideration. The district court denied the motion for
reconsideration. Benson now moves this court to proceed in forma pauperis on appeal.
An indigent litigant may proceed in forma pauperis on appeal if the appeal has an arguable
basis in law and fact. Fed. R. App. P. 24(a)(5); Neitzke v. Williams, 490 U.S. 319, 325 (1989);
Owens v. Keeling, 461 F.3d 763, 774-76 (6th Cir. 2006). However, § 1915(g) provides that a
prisoner who has previously had three or more actions or appeals dismissed as frivolous, as
malicious, or for failure to state a claim is barred from proceeding in forma pauperis in the district
court or on appeal “unless the prisoner is under imminent danger of serious physical injury.” 28
U.S.C. § 1915(g). To satisfy the imminent-danger exception, a prisoner must allege “facts from
which a court, informed by its judicial experience and common sense, could draw the reasonable
inference that [he] was under an existing danger at the time he filed his complaint” or, on appeal
to this court, at the time that he filed his appeal. Vandiver v.-Prison Health Servs., Inc., 727 F.3d
580, 585 (6th Cir. 2013) (alteration in original) (quoting Taylor v. First Med. Mgmt., 508 F. App’x
488,492 (6th Cir. 2012)); see Martin v. Shelton, 319 F.3d 1048, 1050 (8th Cir. 2003). Allegations
of past danger, as well as wholly speculative or conclusory allegations of danger, are insufficient
to satisfy the exception. Vandiver, 727 F.3d at 585. “The imminent danger exception is essentially

<

Case: 20-6005

Document: 14-1

Filed: 01/11/2021

(3 of 5)

Page: 3

No. 20-6005
-3 a pleading requirement subject to the ordinary principles of notice pleading.”

Vandiver v.

Vasbinder, 416 F. App’x 560, 562 (6th Cir. 2011).
Benson’s motion to proceed in forma pauperis is denied. First, Benson does not and,
indeed, cannot successfully challenge on appeal the district court’s finding that he has at least three
prior strikes. He has been an active pro se litigant and has accrued at least three prior strikes in his
proceedings filed with the district courts and with this court. See, e.g., Benson v. Luttrell, No.

i

2:08-cv-02825, R.E. #6 (W.D. Tenn. Jan. 9, 2009); Benson v. Luttrell, No. 2:07-cv-02790, R.E.
#22 (W.D. Tenn. Sept. 11, 2008); Benson v. Luttrell, No. 2:04-cv-02507, R.E. #7 (W.D. Tenn.
Oct. 26, 2004).
Second, the district court properly held that Benson failed to overcome § 1915(g)’s filing
restrictions because his complaint did not contain sufficient allegations of imminent danger. All
of Benson’s allegations concern his criminal proceedings in 2018 and 2019. He made no allegation
that he was in imminent danger at the time he filed his complaint.

In his motion for

reconsideration, Benson argued that, his allegation that Judge Lammey ordered him to be
transferred to a mental institution where he was forced to take medication without his consent
satisfied the imminent-danger exception. But according to the complaint, that transfer happened
in July 2018, nearly two years before he filed his complaint. Although Benson alleged in his
motion for reconsideration that the danger did not end until he stopped taking the medication while
at the Shelby County Correctional Center, where he is currently incarcerated, he gave no indication
that anyone at that facility was forcing him to take the medication against his will. Indeed, he
suggests that he simply stopped taking the medication. What is more, in his complaint, Benson
stated that “[tjhese civil rights violations ha[ve] nothing to do with [his current] institution.”

<

Case: 20-6005

Document: 14-1

Filed: 01/11/2021

Page: 4

(4 of 5)

No. 20-6005
-4Accordingly, Benson’s motion to proceed in forma pauperis is DENIED. Unless Benson
pays the $505 appellate filing fee to the district court within thirty days of the entry of this order,
this appeal will be dismissed for want of prosecution. Benson’s petition for initial en banc hearing
and his motion to enjoin crossclaim to petition for en banc hearing will not be considered unless
and until the filing fee is paid.

ENTERED BY ORDER OF THE COURT

i

Deborah S. Hunt, Clerk

i

Case 2:20-cv-02481-MSN-tmp Document 5 Filed 07/28/20 Page 1 of 7

PagelD 15

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
RICKEY BENSON,
Plaintiff,
No. 20-2481-MSN-tmp

v.

STATE OF TENNESSEE, et al.,
Defendants.
ORDER DENYING LEAVE TO PROCEED IN FORMA PAUPERIS,
DISMISSING THE COMPLAINT PURSUANT TO 28 U.S.C. § 1915(g),
DENYING REQUEST FOR APPOINTMENT OF COUNSEL,
CERTIFYING THAT AN APPEAL WOULD NOT BE TAKEN IN GOOD FAITH,
AND DENYING LEAVE TO APPEAL IN FORMA PAUPERIS
On July 1, 2020, Plaintiff Rickey Benson, who is incarcerated at the Shelby County
Correctional Center in Memphis, Tennessee, filed a pro se complaint pursuant to 42 U.S.C. § 1983
and a motion to proceed in forma pauperis. (ECF Nos. 1, 2.) He names the State of Tennessee
and State Court Judge James M. Lammey, Jr. as Defendants. (Id. at PagelD 2.) Benson’s
complaint addresses his contention that, based on Benson’s mental health issues, Judge Lammey
should have sentenced him to a shorter term and assigned him to a mental health program for
supervised release.

Benson argues that Defendants are liable for conspiracy, negligence,

discrimination, due process violation, cruel and unusual punishment, emotional distress, and pain
and suffering. (ECF No. 1 at PagelD 3 (“Claim One”).) The complaint also “challeng[es] the
three-strike provision that keep[s] me from proceeding in forma pauperis” in this case. (Id. at
PagelD 4 (“Claim Two”).) Benson also asks the Court to appoint counsel for him and seeks
“compensation for the Defendants violating my civil rights.” (Id. at PagelD 5.)

Case 2:20-cv-02481-MSN-tmp Document 5 Filed 07/28/20 Page 2 of 7

L

PagelD 16

DENIAL OF LEAVE TO PROCEED IN FORMA PA UPERIS, AND DISMISSAL OF
COMPLAINT PURSUANT TO 28 U.S.C. § 1915(g)
Under the Prison Litigation Reform Act, §§ 1915(a)-(b), a prisoner bringing a civil action

must pay the full civil filing fee. The PLRA merely provides the prisoner the opportunity to make
a “downpayment” of a partial filing fee and pay the remainder in installments. See McGore v.
Wrigglesworth, 114 F.3d 601,604 (6th Cir. 1997) (“[w]hen an inmate seeks pauper status, the only
issue is whether the inmate pays the entire fee at the initiation of the proceeding or over a period
of time under an installment plan. Prisoners are no longer entitled to a waiver of fees and costs.”),
partially overruled on other grounds by LaFountain v. Harry, 716 F.3d 944, 951 (6th Cir. 2013).
However, not all indigent prisoners are entitled to take advantage of the installment
payment provisions of § 1915(b). Section 1915(g) provides as follows:
In no event shall a prisoner bring a civil action or appeal a judgment
in a civil action or proceeding under this section if the prisoner has,
on 3 or more prior occasions, while incarcerated or detained in any
facility, brought an action or appeal in a court of the United States
that was dismissed on the grounds that it is frivolous, malicious, or
fails to state a claim upon which relief may be granted, unless the
prisoner is under imminent danger of serious physical injury.
Thus, “[sjuch a litigant cannot use the period payment benefits of § 1915(b). Instead, he
must make full payment of the filing fee before his action may proceed.” In re Alea, 286 F.3d 378,
380 (6th Cir. 2002). The Sixth Circuit has upheld the constitutionality of this provision. Wilson
v. Yaklich, 148 F.3d 596, 602-06 (6th Cir. 1998).
Here, Benson has filed more than three previous civil actions in federal court that were
dismissed for failure to state a claim or as frivolous.1 Therefore, he may not file any further action

l

See Benson v. Luttrell, et al., No. 08-2825-JPM-dkv (W.D. Tenn. Jan. 9, 2009)
(dismissed for failure to state a claim), aff’d, No. 09-5145 (6th Cir. Nov. 4, 2009); Benson v.
Luttrell, et al., No. 07-2790-SHM (W.D. Tenn. Sept. 11, 2008) (dismissed for failure to state a
claim), appeal dismissed, No. 08-6277 (6th Cir. July 20,2009), cert, denied, 130 S. Ct. 411 (2009);
2

Case 2:20-cv-02481-MSN-tmp Document 5 Filed 07/28/20 Page 3 of 7

PagelD 17

in which he proceeds in forma pauperis unless he first demonstrates that he is under imminent
danger of serious physical injury. The assessment of whether a prisoner is in imminent danger is
made at the time of the filing of the complaint. See, e.g., Vandiver v. Vasbinder, 416 F. App’x
560, 561-62 (6th Cir. 2011); Rittner v. Kinder, 290 F. App’x 796, 797-98 (6th Cir. 2008); Malik
v. McGinnis, 293 F.3d 559, 562-63 (2d Cir. 2002); AbdulAkbar v. McKelvie, 239 F.3d 307, 31216 (3d Cir. 2001) (en banc). Section 1915(g)’s determinative consideration, as to whether threestrike filers may proceed in forma pauperis, is “imminent danger of serious physical injury,” see
28 U.S.C. § 1915(g), and not—as Benson proposes—the passage of time. (See ECF No. 1 at
PagelD 4 (“I believe that the Judge should relieve me from the three-strike provision due to the
fact that it has been over a decade since Judge Todd issued such order.”).)
Benson’s Count One addresses his motion to withdraw his guilty plea, his six-year
sentence, and his motion to correct illegal sentence that he filed in Tennessee state court. Those
state proceedings arose from burglary charges against him. (ECF No. 1 at PagelD 3.) Benson
argues that Judge Lammey violated his civil rights by refusing to certify that he is “a mental patient
who was consuming prescribed drugs . . . and should have been sentenced to a lesser time on
probation and assigned to a mental program to enjoy the privilege of supervised release into the
community.” (Id.) Benson states that Judge Lammey issued “an order for me to be transferred to

Benson v. Luttrell, etal., No. 04-2507-JPM-tmp (W.D. Tenn. Oct. 26, 2004) (dismissed for failure
to state a claim); Benson v. State of Tennessee, No. 16-2214-SHL-dkv (W.D. Tenn. Mar. 3, 2017)
(noting that Benson filed at least three prior civil rights lawsuits before this Court while he was
incarcerated, which were dismissed for failure to state a claim; finding that he failed to plead facts
showing imminent danger under § 1915(g); and ordering him to remit the entire $400 filing fee
within thirty days (ECF No. 10); and dismissing case for failure to comply with the Court’s order
directing payment of the civil filing fee (ECF No. 23)).

3

Case 2:20-cv-02481-MSN-tmp Document 5 Filed 07/28/20 Page 4 of 7

PagelD 18

a mental health hospital where I was forced to consume prescribed drugs without my consent.”
(Id.)
Benson’s Count Two “challenges] the three strikes provision” of 28 U.S.C. 1915(g). (Id.
at PagelD 4.) He asks to be “relieve[d] from” this statutory provision because “it has been over a
decade” since this Court previously prevented him “from proceeding in forma pauperis unless I
am in imminent danger of serious physical harm.” (Id.)
None of Benson’s allegations sufficiently allege that he was in imminent danger of serious
physical injury when he filed his complaint on July 1, 2020. Count One’s contentions—regarding
the sentencing judge’s consideration of Benson’s mental health medication, the length of his
sentence, the terms of his probation, and his eligibility for supervised release—do not involve any
physical injury. Count Two’s contentions—about whether § 1915(g)’s three-strikes provision
applies so as to prevent him from proceeding in forma pauperis—are similarly unrelated to any
physical injury. Accordingly, the complaint’s allegations are insufficient to satisfy § 1915(g). See
Rittner v. Kinder, 290 F. App’x 796, 797 (6th Cir. 2008) (explaining that, to meet the requirement
of § 1915(g), “the threat or prison condition ‘must be real and proximate’ and the danger of serious
physical injury must exist at the time the complaint is filed”). The complaint therefore does not
come within the exception to 28 U.S.C. § 1915(g) and the Court cannot address its merits unless
Benson first tenders the civil filing fee.
For these reasons, Benson’s motion to proceed in forma pauperis (ECF No. 2) is DENIED
pursuant to § 1915(g). This action is DISMISSED without prejudice. Benson may, within thirty

4

Case 2:20-cv-02481-MSN-tmp Document 5 Filed 07/28/20 Page 5 of 7

PagelD 19

(30) days after the entry, ofjudgment, re-open the case by filing a motion to re-open, accompanied
by full payment of the $400 civil filing fee.2
II.

PUTATIVE REQUEST FOR RECUSAL
In a prior case before this Court, Benson alleged judicial misconduct based on the Court’s

unfavorable rulings in his various cases. See Benson v. State of Tennessee, No. 16-2214-SHL-dkv
(W.D. Term. Mar. 20, 2017) (ECF No. 50 at PagelD 54-56). The Court found no valid basis for
recusal. Id.
In his present complaint, Benson refers to his prior judicial misconduct allegation, but he
does not expressly request recusal. (ECF No. 1 at PagelD 4.) Nevertheless, even if he intended
to seek such recourse, he does not offer any evidence that the Court has any personal bias against
him arising out of the background or extrajudicial conduct of the undersigned judge. See 28 U.S.C.
§ 144 and 28 U.S.C. § 455; Ullmo ex rel. Ullmo v. Gilmour Acad., 273 F.3d 671, 681 (6th Cir.
2001); United States v. Sammons, 918 F.2d 592, 599 (6th Cir. 1990); and Browning v. Foltz, 837
F.2d 276, 279 (6th Cir. 1988).
Therefore, to the extent Benson requests the undersigned’s recusal from this matter, such
request is DENIED.
III.

REQUEST FOR APPOINTMENT OF COUNSEL
Finally, Benson asks this Court to appoint him counsel because he has requested a jury

trial. (ECF No. 1 at PagelD 4.)

2 Title 28 U.S.C. § 1914(a) requires a civil filing fee of $350. However, pursuant to §
1914(b), “[t]he clerk shall collect from the parties such additional fees ... as are prescribed by the
Judicial Conference of the United States.” The Judicial Conference has prescribed an additional
administrative fee of $50 for filing any civil case, except for cases seeking habeas corpus and cases
in which the plaintiff is granted leave to proceed in forma pauperis under 28 U.S.C. § 1915.
Because the Court is denying leave to proceed in forma pauperis in this case, Plaintiff is liable for
the entire $400 fee.
5

Case 2:20-cv-02481-MSN-tmp Document 5 Filed 07/28/20 Page 6 of 7

PagelD 20

Pursuant to 28 U.S.C. § 1915(e)(1), “[t]he court may request an attorney to represent any
person unable to afford counsel.” However, “[tjhere is no constitutional or . . . statutory right to
counsel in federal civil cases.” Farmer v. Haas, 990 F.2d 319, 323 (7th Cir. 1993). Rather, the
appointment of counsel in a civil proceeding is a privilege justified only in exceptional
circumstances. Lavado v. Keohane, 992 F.2d 601,605-06 (6th Cir. 1993). The decision to appoint
counsel for an indigent litigant in a civil case is a matter vested within the broad discretion of the
Court. Childs v. Pellegrin, 822 F.2d 1384 (6th Cir. 1987). See also Lavado, 992 F.2d at 604—05.
Generally, a court will only appoint counsel in “exceptional circumstances.” Id. at 605-06.
Accord Willett v. Wells, 469 F. Supp. 748, 751 (E.D. Tenn. 1977). To determine whether the case
meets this standard, the Court examines the pleadings and documents to assess the merits of the
claims, the complexity of the case, the pro se litigant’s prior efforts to retain counsel, and his ability
to present the claims. Henry v. City ofDetroit Manpower Dep’t, 763 F.2d 757,760 (6th Cir. 1985).
See also Kilgo v. Ricks, 983 F.2d 189, 193 (11th Cir. 1993) (“The key [to determining whether
exceptional circumstances exist] is whether the pro se litigant needs help in presenting the essential
'

merits of his or her position to the court. Where the facts and issues are simple, he or she usually
will not need such help.”).
Here, after consideration of Benson’s request for counsel (ECF No. 1 at PagelD 5),
including the type and nature of the case, its complexity, and his ability to prosecute his claim,
counsel is not necessary at this time to ensure his claims are fairly heard. See Mira v. Marshall,
806 F.2d 636 (6th Cir. 1986). The issues in this case are not complex, and the complaint’s
assertions do not demonstrate exceptional circumstances warranting appointment of counsel at this
time. See Kennedy v. Doyle, 37 F. App’x 755, 757 (6th Cir. 2002). Benson’s request for
appointment of counsel is DENIED.

6

Case 2:20-cv-02481-MSN-tmp Document 5 Filed 07/28/20 Page 7 of 7

IV.

PagelD 21

CONCLUSION
In conclusion, the Court hereby CERTIFIES, pursuant to 28 U.S.C. § 1915(a)(3) and

Federal Rule of Appellate Procedure 24(a), that an appeal by Benson in this case would not be
taken in good faith. Leave to appeal in forma pauperis is DENIED.
The Clerk is directed to prepare a judgment.
IT IS SO ORDERED this 28th day of July, 2020.
s/ Mark Norris
MARK S. NORRIS
UNITED STATES DISTRICT JUDGE

7

Case: 20-6005

Document: 24-2

Filed: 04/16/2021

Page: 1

(2 of 2)

No. 20-6005
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
RICKEY BENSON,

)
)
)
)
)
)

Plaintiff-Appellant,
v.
STATE OF TENNESSEE; JAMES M. LAMMEY,
Judge of Division 5 of the Criminal Court of Shelby
County, TN,
Defendants-Appellees.

Apr 16, 2021
DEBORAH S. HUNT, Clerk

ORDER

)
)
)
)
)

Before: MOORE, GIBBONS, and MURPHY, Circuit Judges.
Rickey Benson, a pro se inmate at the Shelby County Correctional Center and frequent
litigant, moves this court for reconsideration of its January 11, 2021, order denying his motion to
proceed in forma pauperis on appeal. Benson’s motion for reconsideration does not show that the
court overlooked or misapprehended any point of law or fact in denying his motion to proceed in
forma pauperis. See Fed. R. App. P. 40(a)(2).
Accordingly, Benson’s motion for reconsideration is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

